<html>
<title> - THE SENSE OF CONGRESS THAT THOSE WHO COMMIT OR SUPPORT ATROCITIES AGAINST CHRISTIANS AND OTHER ETHNIC AND RELIGIOUS MINORITIES . . . ARE COMMITTING, AND ARE HEREBY DECLARED TO BE COMMITTING, ``WAR CRIMES'', ``CRIMES AGAINST HUMANITY'', AND ``GENOCIDE''; CONDEMNING THE GROSS VIOLATIONS OF INTERNATIONAL LAW AMOUNTING TO WAR CRIMES AND CRIMES AGAINST HUMANITY BY THE GOV'T OF SYRIA, ITS ALLIES, AND OTHER PARTIES TO THE CONFLICT IN SYRIA, AND ASKING THE PRESIDENT TO DIRECT HIS AMBASSADOR AT THE U.N. TO PROMOTE THE ESTABLISHMENT OF A WAR CRIMES TRIBUNAL WHERE THESE CRIMES COULD BE ADDRESSED</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 THE SENSE OF CONGRESS THAT THOSE WHO COMMIT OR SUPPORT ATROCITIES 
AGAINST CHRISTIANS AND OTHER ETHNIC AND RELIGIOUS MINORITIES . . . ARE 
 COMMITTING, AND ARE HEREBY DECLARED TO BE COMMITTING, ``WAR CRIMES'', 
  ``CRIMES AGAINST HUMANITY'', AND ``GENOCIDE''; CONDEMNING THE GROSS 
  VIOLATIONS OF INTERNATIONAL LAW AMOUNTING TO WAR CRIMES AND CRIMES 
 AGAINST HUMANITY BY THE GOV'T OF SYRIA, ITS ALLIES, AND OTHER PARTIES 
   TO THE CONFLICT IN SYRIA, AND ASKING THE PRESIDENT TO DIRECT HIS 
  AMBASSADOR AT THE U.N. TO PROMOTE THE ESTABLISHMENT OF A WAR CRIMES 
             TRIBUNAL WHERE THESE CRIMES COULD BE ADDRESSED

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                  H. Con. Res. 75 and H. Con. Res. 121

                               __________

                             MARCH 2, 2016

                               __________

                           Serial No. 114-149

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                             U.S. GOVERNMENT PUBLISHING OFFICE
98-948PDF                          WASHINGTON : 2016                             
                                
________________________________________________________________________________________    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f283f200f2c3a3c3b272a233f612c202261">[email&#160;protected]</a>  
                             
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Con. Res. 75, Expressing the sense of Congress that those who 
  commit or support atrocities against Christians and other 
  ethnic and religious minorities, including Yezidis, Turkmen, 
  Sabea-Mandeans, Kaka'e, and Kurds, and who target them 
  specifically for ethnic or religious reasons, are committing, 
  and are hereby declared to be committing, ``war crimes,'' 
  ``crimes against humanity,'' and ``genocide''..................     2
  Amendment in the nature of a substitute to H. Con. Res. 75 
    offered by the Honorable Edward R. Royce, a Representative in 
    Congress from the State of California, and chairman, 
    Committee on Foreign Affairs.................................     8
H. Con. Res. 121, Expressing the sense of the Congress condemning 
  the gross violations of international law amounting to war 
  crimes and crimes against humanity by the Government of Syria, 
  its allies, and other parties to the conflict in Syria, and 
  asking the President to direct his Ambassador at the United 
  Nations to promote the establishment of a war crimes tribunal 
  where these crimes could be addressed..........................    14

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                 
                                 APPENDIX

Markup notice....................................................    38
Markup minutes...................................................    39
Markup summary...................................................    41
  
 
  THE SENSE OF CONGRESS THAT THOSE WHO COMMIT OR SUPPORT ATROCITIES 
AGAINST CHRISTIANS AND OTHER ETHNIC AND RELIGIOUS MINORITIES . . . ARE 
 COMMITTING, AND ARE HEREBY DECLARED TO BE COMMITTING, ``WAR CRIMES'', 
  ``CRIMES AGAINST HUMANITY'', AND ``GENOCIDE''; CONDEMNING THE GROSS 
  VIOLATIONS OF INTERNATIONAL LAW AMOUNTING TO WAR CRIMES AND CRIMES 
 AGAINST HUMANITY BY THE GOV'T OF SYRIA, ITS ALLIES, AND OTHER PARTIES 
   TO THE CONFLICT IN SYRIA, AND ASKING THE PRESIDENT TO DIRECT HIS 
  AMBASSADOR AT THE U.N. TO PROMOTE THE ESTABLISHMENT OF A WAR CRIMES 
             TRIBUNAL WHERE THESE CRIMES COULD BE ADDRESSED

                              ----------                              


                        WEDNESDAY, MARCH 2, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order.
    Pursuant to notice, we meet today to mark up two bipartisan 
resolutions concerning grave challenges to humanity, and 
without objection all members may have 5 days to submit 
statements or extraneous materials for the record.
    As all members were notified yesterday, we intend to 
consider the two resolutions en bloc and so without objection 
the following items previously provided to members will be 
considered en bloc and considered as read.
    House Concurrent Resolution 75, which expresses the sense 
of Congress that ISIS' atrocities against Yezidis, Christians 
and other minorities constitute war crimes, crimes against 
humanity and genocide. Royce Amendment 97 in the nature of a 
substitute and House Concurrent Resolution 121, which condemns 
the war crimes and crimes against humanity by the government of 
Syria, its allies, and other parties and urges the 
establishment of a war crimes tribunal.
    [The information referred to follows:]<greek-l>H. Con. Res. 
75 deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Royce. After recognizing myself and the ranking 
member, I'll be pleased to recognize any member seeking 
recognition to speak on these measures.
    So I appreciate members assembling this morning. This is a 
very consequential markup. The so-called Islamic State, or ISIS 
or ISIL, is committing war crimes and crimes against humanity, 
and they're committing genocide against religious and ethnic 
minorities, in particular, against the Christian community and 
the Yezidis. House Concurrent Resolution 75--led by Congressman 
Jeff Fortenberry, Congresswoman Anna Eshoo--and 200 bipartisan 
cosponsors states that fact clearly.
    This committee has held multiple hearings on this group's 
brutal war to eliminate religious minorities and to bulldoze 
their histories. ISIS' tools include mass murder. It includes 
beheadings, as you know. As we've heard from the testimony, it 
includes rape and crucifixions and torture and enslavement and 
the kidnapping of children, among other atrocities. Churches 
and temples are destroyed. Put simply, their desire is to erase 
the existence of these groups from their self-proclaimed 
caliphate by any means necessary.
    The crime of genocide is killing or inflicting other 
serious harm with the intent to destroy a religious or an 
ethnic group in whole or in part, and of this ISIS is guilty.
    ISIS has clearly stated that it cannot abide the continued 
existence of the Yezidi community and has followed these 
statements up with the widespread killing and enslavement. The 
boys and men are killed, older women are killed, girls and 
younger women are enslaved. Last fall, members of this 
committee met with Bazi, a young Yezidi woman from Iraq, who 
bravely recounted her brutal captivity and abuse at the hands 
of the terrorist group, in particular at the hands of an 
American who had been recruited online into ISIS and who had 
taken her and others captive and enslaved her as a sexual 
concubine.
    He explained to her why it was in his religion, or his 
interpretation of it, that they needed to be stamped out and 
why it was proper that all of the men in her family be killed 
and the women enslaved. She subsequently escaped.
    ISIS has also made no secret of its--and I'm going to quote 
ISIS here--``hatred for the cross worshipers.'' In one of their 
gruesome videos addressed to Christians, an ISIS spokesman 
taunts the so-called ``people of the cross,'' saying ``you will 
have no safety, even in your dreams, until you embrace Islam'' 
and then 15 Christians--they're captives before the video--are 
beheaded on camera.
    Sister Diana Momeka, who testified here after fleeing the 
ISIS offensive against Mosul, described to us a cultural and 
human genocide and observed that today ``the only Christians 
that remain in the Plain of Nineveh are those who are held as 
concubines or hostages.''
    Most telling, ask how many of the ancient, indigenous 
Christian communities survive in the area where ISIS has 
consolidated its control. Experts inform me that the answer to 
that is zero.
    ISIS brutalizes anyone whose beliefs conflict with its own 
narrow ideology, including fellow Muslims. It has torn the rich 
religious and cultural tapestry of this region to shreds.
    At a hearing 3\1/2\ months ago when Ambassador Patterson 
was asked whether ISIS is committing genocide, she said we 
could expect ``some announcements on that very shortly.'' We, 
as a committee, are still waiting for that announcement.
    In December, I wrote Secretary Kerry a bipartisan letter 
urging that any genocide determination must reflect the full 
reality of the situation faced by all groups--Yezidis and 
Christians and others. The State Department is facing a 
statutory deadline of March 17 to provide Congress with an 
evaluation of the genocide question.
    The U.S. Commission on International Religious Freedom and 
the European Parliament have found their voices in this. Both 
have publically concluded that Yezidis and Christians are 
facing genocide at the hands of ISIS in Syria and in Iraq.
    The House of Representatives--and this committee in 
particular--led the push to recognize genocide in Sudan in the 
late 1990s. I remember the critical role we played in that 
debate. I remember how long that took. I remember going up to 
the United Nations on this issue. We have recognized genocide 
in numerous other situations including in Rwanda, including in 
the former Yugoslavia. It is time that we do so again, to speak 
the truth about the atrocities of ISIS and hope that the 
administration and the world will do the same before it is too 
late.
    But we cannot condemn ISIS' atrocities without also 
denouncing the horrendous war crimes being perpetrated on a 
massive scale by Syria's Bashar al-Assad. And so I want to 
thank Subcommittee Chairman Smith for reintroducing House 
Resolution 269 as House Concurrent Resolution 121, which 
expresses the sense of the Congress that the administration 
should promote the establishment of a Syrian war crimes 
tribunal. The committee passed a substantially similar measure 
last Congress and we appreciate what strong leadership Mr. 
Smith has shown on this issue.
    For several years this committee has heard searing 
testimony regarding the terrible atrocities being committed by 
Syria's Government against its own people--widespread torture, 
industrial scale murder, starvation as a tool of war, and the 
terror of unending barrel bombs and chemical bombs.
    Two years ago, we heard from regime defector ``Caesar,'' if 
you'll recall the testimony from the photographer, regarding 
Assad's systematic use of torture. He was a former regime 
photographer and he smuggled out of his country 50,000 images 
showing the horrific fate of those Syrians who objected to 
Assad's brutality. These were men, women, and children from all 
sects, all religions, all groups, who disappeared into his 
prisons and their mangled bodies were numbered as each one was 
killed--tortured and killed--and he documented all of that. I 
don't know why totalitarian regimes have this obsession with 
documenting what they do but they do, and in this particular 
case he smuggled out the photographs.
    We have also heard from the brave doctors treating the 
victims of Assad's barrel bombs--often filled with chlorine 
gas--as they recalled watching children suffocate on their 
makeshift operating tables. These same doctors and nurses have 
been targeted by the Assad regime and targeted by its allies, 
Russia and Iran. More than 500 of these doctors have been 
killed--500 of these doctors and nurses have been killed in 
these bombings since the start of the fighting.
    The Assad regime and its allies have used starvation as a 
tool of war. We've seen images from cities showing the 
emaciated bodies of those dying under siege. Taken together, 
Assad and his allies have killed more than 18,500 children, 
among the hundreds of thousands, by the way, of victims of 
their terrible crimes.
    At the same time, ISIS and other extremist-linked fighters 
like al-Nusra have carried out grave crimes against the local 
communities under their control--all in an effort to impose a 
violent radical ideology.
    This resolution calls for the creation of an international 
tribunal to hold those responsible for these heinous crimes 
accountable. The resolution envisions a flexible regional 
tribunal like those established following brutal conflicts in 
Yugoslavia, Rwanda, and Sierra Leone.
    This court would focus solely on the crisis in Syria. 
Congressional approval of this resolution will send a strong 
signal of support to the Syrian people that they are not alone, 
that the world sees their suffering and will not accept such 
brutality without consequences.
    As David Crane, the former chief prosecutor of the special 
court for Sierra Leone, testified before this committee, we 
``have to seek justice for the people that have been destroyed 
by the Assad regime.''
    We now have 420,000 killed. We now have 4 million in exile 
and there are another 7 million displaced within Syria. So I 
urge members to support this resolution as well as our first 
House concurrent resolution on genocide and I urge members to 
do so so that the possibility of justice and accountability for 
these atrocities can give hope to those suffering today.
    I will now turn to the ranking member for today's hearing, 
Mr. Brad Sherman from California.
    Mr. Sherman. Mr. Chairman, I want to thank you for holding 
this markup.
    Mr. Chairman, Syria and much of Iraq face two great evils. 
ISIS is well known to everyone in this room. Their evil is well 
known and was well described by the chairman in his opening 
statement.
    The second evil is the extremist Shi'ite alliance, 
consisting of Iran, Assad, Hezbollah, the Houthi, and many 
forces that are powerful in Iraq including Shi'ite militias 
from Baghdad to Basra and the political forces of former Prime 
Minister Maliki.
    That extremist Shi'ite alliance is, I believe, even more 
dangerous than ISIS since they include two state actors and a 
nuclear program, and they have killed more Americans than ISIS, 
whether it be the Marines who died in Lebanon in the 1980s 
where so many of our soldiers and Marines <greek-l>that 
deg.died from IEDs manufactured in Iran and deployed in Iraq 
and Afghanistan.
    There is a substantial difference in the style of the two 
evil forces. When ISIS kills 50 people, they put the beheading 
up on YouTube.
    When Assad kills 1,000 with barrel bombs or even with 
chemical weapons there for a while, Assad has the good taste to 
deny it and lie about it.
    Different styles of evil but two great evils and two 
resolutions before us. The first is H. Con. Res. 121, a 
resolution introduced by our colleague, Chris Smith.
    The bill condemns the gross violations of international law 
perpetrated by the Assad regime and the forces supporting Assad 
that have amounted to war crimes and crimes against humanity.
    We all hope that the current ceasefire holds, but during 
the 5-year civil war in Syria we have seen vicious acts of war 
that most of us hoped would be relegated only to the history 
books, including the use of chemical weapons against 
defenseless civilians by the Syrian Government.
    Assad has also conducted deliberate bombings of schools, 
hospitals, and humanitarian sites for the purpose of expelling 
the civilian population.
    Overall, he has conducted a brutal war to retain power that 
has killed hundreds of thousands of Syrians and displaced 
millions more.
    Assad could not have done this without the support of the 
Iranian Government. Just yesterday, in Foreign Policy Magazine, 
an Iranian official goes on the record to boast that the Iran 
Revolutionary Guard Corps is sending advisors and troops to 
help Assad and that the Tehran government is financing 
Hezbollah and other Shi'ite militias assisting Assad.
    The resolution we're considering today, H. Con. Res. 121, 
makes specific mention of the role that Iran and this extremist 
Shi'ite alliance have played, and I think that's an important 
part of the resolution.
    The chairman and I have introduced legislation that would 
enhance sanctions on Iran's Islamic Revolutionary Guard Corps 
and in turn make it more difficult for the IRGC to support 
Assad and the Syrian Government and I urge my colleagues to co-
sponsor H.R. 4312, if you have not done so already.
    The other resolution we're considering today focuses on 
ISIS. It's H. Con. Res. 75, and it asks how we classify the 
violence that ISIS has carried out, especially on non-Sunni 
Muslim religious groups and ethnic minorities.
    I want to thank Anna Eshoo and Jeff Fortenberry for their 
work in putting this resolution together. I have co-sponsored, 
as have so many others here today.
    I also want to thank the chairman and ranking member for 
their hard work on the amendment in the nature of a substitute 
which I think strikes the right balance and I believe we should 
all support.
    This resolution, H. Con. Res. 75, calls the violent acts of 
ISIS by the right name--war crimes, crimes against humanity 
and, where appropriate, genocide.
    I support this resolution and its call on member states of 
the United Nations, which includes, of course, the United 
States, to coordinate urgently on measures to prevent further 
war crimes against religious and ethnic minorities in Iraq and 
Syria.
    Finally, as we focus our efforts against ISIS, this 
resolution is an important part of it. Another part is American 
air strikes. Our rules of engagement against ISIS, I think, 
have been far too constrained.
    We should be bombing moving tanker trucks, not just those 
that are parked--moving ammunition trucks, not just those that 
are parked.
    It is possible that the driver of the truck will be a 
civilian. But it is entirely appropriate for strategic bombing 
to hit ammunition and oil trucks as they are moving.
    If we are going to defeat ISIS we're going to need to reach 
a settlement in Syria that does not cause Sunni Muslims to 
believe that they will be oppressed by this Assad regime as 
they have been in the past, and I look forward to the passage 
of these two resolutions.
    Yield back.
    Chairman Royce. Thank you, Mr. Sherman.
    We now go to Mr. Chris Smith.
    Mr. Smith. Chairman, thank you so very much for calling 
this important markup and I want to thank you for your very 
pivotal and very important co-sponsorship of H. Con. Res. 121 
and also Eliot Engel, thank him for his support for this.
    You know, this has been a long time in the making. I 
introduced the first iteration of it in September 2013, 
continually have asked Secretary Kerry and others in the 
administration.
    They have never said no but they haven't said yes about 
this idea of establishing a Syrian war crimes tribunal. We've 
had a number of hearings where they were dedicated in part and 
one in whole to this proposition.
    We had Jeremy Rabkin, David Crane, as you pointed out, the 
Prosecutor for the Sierra Leone court, Alan White, the former 
Chief Investigator for the court for Sierra Leone, Steve 
Rademaker, who obviously gave some very, very good insights. He 
used to work on this staff, then worked in the administration 
and now he's the national security project advisor for the 
Bipartisan Policy Center, and all pulling on that same oar that 
the time has come to establish a Syrian war crimes tribunal.
    And that's what the resolution seeks to do, that we 
immediately move to establish such a war crimes tribunal, get 
the U.N. Security Council to take it up, calls on the 
administration to pursue this policy goal including our voice 
and vote at the U.N.
    Past ad hoc regional war crimes tribunals, including the 
courts for Sierra Leone, Rwanda, and the former Yugoslavia, 
have made significant differences in holding some of the worst 
mass murderers to account with successful prosecutions followed 
by long jail sentences.
    I would note parenthetically that I have worked with the 
prosecutors of each of these tribunals and had many of them, 
including the Yugoslav court, provide testimony and, as I 
mentioned, David Crane, as well.
    These courts have worked. They're not perfect but they are 
flexible and they have had significant convictions of those who 
have committed these crimes.
    Who can forget the picture, Mr. Chairman, of the infamous 
former President of Liberia, Charles Taylor, with his head 
bowed, incredulous that the Special Court for Sierra Leone in 
2012 meted out a 50-year jail term for his crimes against 
humanity and war crimes.
    You've given some estimates, and the estimates do vary from 
420,000. The Center for Policy Research says that the 5 years 
of bloodshed, either direct or indirectly, perhaps has killed 
470,000 people. The ranges are very, very large.
    While the U.N. has long ago abandoned estimating the death 
toll to its inability to verify the numbers, the center's 
estimate nevertheless suggests massive loss of life, especially 
of women and children.
    The International Syria Support Group, co-chaired by the 
U.S. and Russia, brokered a cessation of hostilities that 
kicked in on February 27 that applies to all parties except 
ISIS and al-Nusra.
    While we all hope and pray that the ceasefire holds and 
humanitarian groups gain access to sick, frail, and at-risk 
people, the atrocities committed against Syria's population 
demand accountability and justice.
    Rigorous investigations followed by prosecutions, 
convictions, and serious jail time for these perpetrators will 
hold all sides accountable and will send a clear message that 
barbaric behavior has dire personal consequences. The victims 
and their loved ones deserve no less.
    Can the U.S. Security Council resolution establishing a 
Syrian war crimes tribunal prevail? I would respectfully submit 
yes. With a Herculean diplomatic push by the U.S. and other 
interested parties, past success in creating war crimes 
tribunals can indeed be prologue. And I remember the naysayers 
who said there was no way the Yugoslav court would come into 
existence.
    Russia was too close to Slobodan Milosevic and their 
solidarity with Serbia during the Balkan War made that 
impossible. Yet, it was unanimously approved.
    Ditto for the Special Court for Sierra Leone in 2002 and 
for the Rwanda tribunal that was created in 1994, China chose 
to abstain rather than exercise their veto.
    At a Syrian war crimes court, no one on any side--and this 
has to be emphasized with exclamation points--who commits war 
crimes, genocide, or crimes against humanity would be precluded 
from prosecution.
    An ad hoc regional court also has significant advantages 
over the International Criminal Court and our hearing with 
David Crane and others made that absolutely clear that this was 
the preferred venue for justice.
    For starters, neither Syria nor the U.S. is a member of the 
ICC, although mechanisms do exist to push prosecutions there. 
The ICC has operated since 2002 but boasts only two 
convictions.
    By way of contrast, the Yugoslav court convicted 80 people 
and those trials are still ongoing. Rwanda has 61 and Sierra 
Leone nine and, moreover, a singularly focused tribunal 
provides Syrians with a degree of ownership that would enhance 
its effectiveness.
    And finally, I want to thank Jeff Fortenberry and Anna 
Eshoo for the resolution on declaring that not just the Yezidis 
but other minority groups, especially Christians, are the 
target of genocide.
    I've had five hearings on the genocide that has been 
committed against Christians in Syria and I can tell you from 
those hearings, including the emergency one we had on December 
9, it was made very clear by people like Dr. Gregory Stanton, 
president of Genocide Watch, who said ``Weak words are not 
enough. Failure to call ISIS a mass murderer of Christians, 
Muslims, and other groups in addition to Yezidis by its proper 
name, genocide, would be an active denial as grave as U.S. 
refusal to recognize the Rwandan genocide in 1994.''
    Even the head of the Yezidi Human Rights Organization, 
Ismail, said that yes, the Yezidis are targeted for 
annihilation and he said so are the Christians.
    So I would hope, again, that members would rally behind 
this resolution as well, and I yield back the balance of my 
time.
    Chairman Royce. Any other members seeking recognition on 
this resolution?
    Mr. Rohrabacher.
    Mr. Rohrabacher. I've got grave concerns about the wording 
of this resolution. We have--and no one has been a greater fan 
of Chris Smith and the great job he's been doing in human 
rights over the years than I have and we've been partners in 
most of his endeavors.
    But the wording--I'm afraid the wording of this resolution 
will include--by including everyone that has been under attack 
in the Middle East we have diluted the fact that the Christians 
and Yezidis are specifically targeted for genocide.
    By declaring people targets of genocide what we mean is 
that we will accept whoever is part of that faith into our 
country and give them refuge.
    Obviously, the Christians from those countries and the 
Yezidis from those countries are targets of genocide. Turkmen 
are not. Other minorities--Kurds are not.
    And we should have no obligation to bring in every group 
that is not engaged themselves in killing someone else but is 
targeted because they live in a village but they--the other 
villages they're not seeking to take everybody out in that 
country.
    They're just in a war. That's what happens. But we do know 
that the Yezidis and the Christians have been specifically 
targeted for elimination.
    Now, I have a resolution--this resolution, by the way, it's 
a House resolution. It's the sense of the House that these 
people be declared targets of genocide.
    I have a--the actual--to make this have teeth into it you 
have to basically go through the Judiciary Committee and I have 
a bill that takes Christians and Yezidis and puts that bill 
through the Judiciary Committee where it belongs because that 
opens up our borders to bring in those people who are--who are 
targeted for genocide--to give the Jews a way into our country 
rather than to declare everybody else when Europe was under 
attack that right, which then would have prevented us from 
doing that.
    So I just have some problems here with the wording of this 
resolution and I would hope that we can condemn these 
atrocities that are being committed without necessarily using 
the word genocide for every one of the groups and--because if 
you dilute it--try to do everything for everybody you could end 
up doing nothing for anybody. And I'm afraid that the wording 
of this would lead to that outcome. So I'm concerned about it.
    Chairman Royce. Yes. I will recognize myself here for a 
minute.
    In the first instance, I think the impetus for this 
resolution is partly on behalf--I think what Mr. Fortenberry is 
thinking here when he's taking the idea of genocide is to try 
to rally the United States and the international community to 
take ISIS down.
    That's the remedy that I think--the primary remedy he's 
seeking. But the second point I would make is on the 
Fortenberry resolution, and Mr. Rohrabacher, you and I are co-
sponsors of the Fortenberry resolution.
    Mr. Rohrabacher. Yes.
    Chairman Royce. I think the reason that you and I 
originally signed on to the resolution was because when we read 
the resolved clauses of genocide in the original resolution, it 
speaks of genocide against Christians and then we added 
Yezidis--against Christians and Yezidis and other ethnic and 
religious minorities.
    So we are co-sponsors of that text. I don't see an 
operative difference between our base text and the text you co-
sponsored.
    In the text we originally co-sponsored, yes, it does 
reference Turkmen and some other specific religious minorities 
that are coming under attack.
    But when we get down to the resolved clauses in that 
resolution and in this resolution deal with, in their 
resolution Christians, in ours Christians and Yezidis.
    Why? Because those are the specific ethnic groups that we 
have the documented evidence that are being targeted by ISIS or 
Daesh or ISIL on the videos and in which we have the witnesses.
    Now, there's a secondary reason why the Fortenberry 
language I think should be passed as is and that is because in 
the European community this language mirrors what they have 
passed as well. They also recognize that it is the Yezidis and 
the Christians that are being targeted.
    And so for those reasons I think that especially given what 
is propelling this resolution, which is the desire to get the 
European community, the American--you know, this hemisphere and 
the rest of the world involved in the basic strategy of taking 
down ISIS and ending a genocide, this is a call to action and 
in that respect I think it's a resolution we could all support.
    Mr. Connolly. Mr. Chairman.
    Mr. Rohrabacher. Would the gentleman yield?
    Chairman Royce. I will yield.
    Mr. Rohrabacher. I would be--I'm satisfied with--if we have 
put on the record in this debate that it is not your intent nor 
the intent of this committee to in some way include all groups 
under attack in the Middle East as targets of genocide.
    But that specifically we do, while this resolution does 
specifically mention Christians and other ethnic--basically, it 
does mention Christians and it says and other ethnic religious 
minorities targeted specifically for religious reasons are 
thereby to be crimes against humanity.
    The word ``and'' would not necessarily mean that all groups 
are part of the ``and'' but instead that we have--there's a 
bifurcation there.
    Chairman Royce. I think we resolve it this way, for your--
we allow that other groups may be being targeted for genocide.
    But what we are stating specifically in the resolution 
clause, in the resolve cause, what we are stating is that it is 
Yezidis and it is Christians that are being targeted for the 
purpose of genocide by ISIS. That is what is pushing the 
resolution.
    Mr. Rohrabacher. Okay, and that--and that when we say 
crimes against humanity and genocide that means we can 
understand some of those groups are being victims of crimes 
against humanity where other groups within that are not 
necessarily targets of genocide.
    Chairman Royce. And then let me yield to Mr. Smith. He 
wanted to have a word.
    Mr. Smith. I thank the chair and thanks for the very good 
explanation. I think that, hopefully, clears up----
    Mr. Rohrabacher. Yes, it does.
    Mr. Smith [continuing]. Any concerns that the gentleman 
from California has.
    One of the reasons why this is so urgent, in December we 
learned that the President was about to declare that the 
Yezidis were the targets of genocide and that the genocide was 
being committed against the Yezidis.
    It's absolutely true. There is a genocide against the 
Yezidis. But omitted from that declaration from what we had 
heard, and it was very reliable, was that the Christians were 
going to be left out.
    That's why I convened an emergency hearing on December 9. 
We heard from a broad section of people concerned--experts I 
mentioned earlier--Dr. Stanton, who heads up Genocide Watch. 
And they made it absolutely clear including the head of Yezidi 
Human Rights Organizational-International, Ismail, that you 
can't have one without the other. The Christians are targeted 
for annihilation.
    I mean, the definition in the Genocide Convention couldn't 
be clearer. In whole or in part, we're talking about 
annihilation. That's whole, so the total definition is, 
obviously, being fulfilled in a horrible way.
    And so I asked Secretary Kerry when he testified here 
respectfully and politely, because I do believe he's an 
honorable man, and he said he was seriously looking at this 
now.
    So the hope is the administration will get it right and 
make that joint declaration.
    Mr. Rohrabacher. Would the gentleman yield? Would the 
gentleman yield?
    Of course, which I agree totally with the sentiment and let 
me just note the reason why we need to be concerned about this 
wording is that if we are indeed declaring all of these groups 
that are--that are victims of crimes against humanity, we 
declare that all of them are also targets of genocide, we then 
have the obligation to require safe haven in the United States 
for any person who is a target of genocide.
    That would include, if we do not make that bifurcation, we 
have actually included all the Kurds, included all the Turkmen, 
and Turkmen, by the way, reflect a huge number of people in 
that area including, I think, large, large portions of these 
countries where we recognize they are crimes against humanity, 
against these people, which we condemn.
    But as I say, you try to do everything for everybody you 
end up doing nothing for anybody and we do need to reach out to 
the Christian communities and the Yezidis to make sure they are 
protected against what is an attempt to annihilate them from 
the planet, and that's the reason for my concern.
    Thank you for yielding.
    Chairman Royce. Thank you.
    We go to Mr. Brad Sherman.
    Mr. Sherman. I think this resolution means to say that 
we've determined that Christians and Yezidis are subject to 
genocide, that other groups are subject to terrible crimes and 
whether any other particular group faces such terrible 
egregious action that it rises to the level of genocide would 
have to be established in some other form on some other day. I 
don't know, and this resolution doesn't say, whether Baha'is or 
Turkmen or anyone else is facing genocide.
    But I don't think it can be used to argue that Congress has 
concluded or that this committee has concluded that they do. 
Let's look at the individual clauses.
    Second whereas clause on Page 1 mentions a whole group--
many different groups but simply uses the word egregious 
atrocities.
    Page 4, whereas clause number three quotes the United 
States Commission on International Religious Freedom and uses 
the word genocide, mentions other groups, but that's just an 
accurate quote from the commission.
    It does not mean that Congress agrees with every single 
word of the quoted material. The most operative part of the 
resolution is on Page 5 lines one through four, once we get to 
the resolve clauses. And there we identify Christians, Yezidis, 
and other religious and ethnic minorities as being subject to 
war crimes, crimes against humanity and--it doesn't say ``and/
or,'' it says ``and''--genocide.
    So we are saying that Christians face all three things 
including genocide. Yezidis face war crimes, crimes against 
humanity, and genocide.
    But as to any other group, they would have to come forward 
and say and our group too faces genocide because there is 
certainly no implication here that every religious and ethnic 
minority in Syria and Iraq is facing genocide but, rather, that 
the Christians do, the Yezidis do, and perhaps there's some 
other group that does as well. I know the Baha'is have been 
mentioned.
    So if somebody was Turkomen or Kurd or any other religious 
or ethnic minority and wanted to say their group faces genocide 
at the hands of ISIS or ISIL. They would have to prove and make 
that case.
    This--the text of this resolution does not embrace that 
conclusion and I yield.
    Chairman Royce. The Chair concurs with Mr. Sherman's 
reading of the resolution.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    First of all, I take my friend from California's point. His 
concern, I think, is that we not dilute something, with the 
best of intentions, and I absolutely take that point and look 
forward to seeing his resolution come out of the Judiciary 
Committee so that we can look at that resolution on its face.
    But I think Mr. Sherman just very ably laid out the actual 
meaning of the words in front of us, which I don't think 
contradicts in any way the legitimate concern of our friend 
from California.
    A word of caution on the other side, if I may. I am 
concerned that this is a fast-moving dynamic. There could be 
other groups that end up being targeted.
    I mean, my friend from California says well, the Kurds 
aren't subject to genocide. Well, what if they are tomorrow? I 
mean, what if the situation on the ground changes and our 
friends who are actually the only ones winning on the 
battlefield and doing the fighting have an adverse situation 
and suddenly they're in this category?
    We've precluded them. We're going to have to write a new 
resolution. And I think it was just prudence the way this was 
drafted so that we're not precluding the situation on the 
ground changing and we're not--we're also not prejudicing who 
may or may not find refuge here or in the West, even if they're 
not directly targets of genocide.
    You know, when you're on the ground and your village is 
being bombed, I don't know that you distinguish between well, 
this is a bomb because of genocide or this is a bomb because 
I'm on the wrong side of the civil war.
    I'm still a victim, and we don't want to lose sight of that 
either. There are terrible victims being created every day on 
the ground and I think this resolution is all encompassing in 
that regard but at the end of the day does explicitly address 
the concern of our friend from California.
    I thank the chair.
    Chairman Royce. Other members seeking--Judge Poe.
    Mr. Poe. I thank the chairman.
    I did want to mention on a different note in as much as 
this is the Foreign Affairs Committee that 180 years ago today 
Texas declared its independence from Mexico, remained an 
independent country for almost 9 years and then it joined the 
United States, and I just wanted to mention that because it's a 
special day for Mr. Weber and Mr. McCaul and myself and others.
    But discussing the issue at hand, these resolutions are 
important. It is important we take a stand on this issue of 
persecution of people because of their religious beliefs, and 
we need to take a stand so there's no doubt about it where we 
stand, not only with Americans but with people throughout the 
world and especially the religious communities that are being 
persecuted.
    ISIS has specifically and intentionally targeted Christians 
and other minorities for the last 5 years for extermination to 
remove them from the face of the earth.
    The definition of genocide is clear. It is the deliberate 
and systematic destruction of a racial or cultural group.
    Genocide is what ISIS is doing and they want to destroy 
anyone that does not conform to their way of belief. ISIS has 
forced hundreds of thousands of Christians to leave their 
ancestral homes. For the first time since Jesus, there are 
almost no Christians left in some of these areas of the world 
where they have been for hundreds of years and it's because of 
ISIS.
    Some of those who could not get out before ISIS came in 
have been tortured, crucified, and executed. ISIS has also 
targeted, as mentioned, the Yezidi community of Iraq.
    It slaughtered almost all of the men in one community on 
Mount Sinjar and sold the women and girls to satisfy their evil 
desires for their deranged fighters. They sold them into 
slavery.
    ISIS is proud of these atrocities. ISIS fighters post 
videos online of their barbaric beheadings of Christians and 
others who refuse to bow to their ideology. They are not 
ashamed of the murder of religious minorities. They hate, 
kidnap and murder because Christians and other ancient minority 
communities will not renounce their religious faith.
    The world, including the United States, needs to be clear 
about what ISIS is doing. America must denounce murder because 
of a person's religious belief no matter where that person is 
in the world.
    I'm proud to be a co-sponsor of H. Con. Res. 75. I support 
its passage, and Mr. Chairman, justice demands ISIS be held 
accountable. Justice is what must be done because justice is 
what we do in America.
    And that's just the way it is. I yield back.
    Chairman Royce. Thank you, Mr. Poe.
    We welcome Texans to the United States on its 180th 
anniversary.
    Mr. Poe. Not everybody did, though. Not everybody voted for 
Texas.
    Chairman Royce. Mr. Trott. Oh, do we have anybody else on 
this side of the aisle?
    Mr. Trott.
    Mr. Trott. Thank you, Mr. Chairman.
    Thank you for bringing up this measure for consideration 
and also to my colleague, Mr. Fortenberry, for his leadership 
on this issue.
    Mr. Chairman, I'm proud to represent a vibrant district 
rich with many religious minorities. In southeast Michigan, we 
have the Syrians, Caldeans, and Armenians, among other 
religious minorities.
    They are my neighbors, my friends, and my colleagues and 
their contribution to Michigan and to America have been 
tremendous.
    But today, they and their families back home face a new 
unprecedented challenge. Ten years ago, Iraq had over 300 
churches. Now, you can't even find 40.
    The city of Mosul was once a Christian stronghold and now 
no longer is home to any Christian communities. Every week at 
home I hear about the atrocities committed against religious 
minorities in the Middle East, some of them against family 
members of my constituents.
    If you spend a day in my district you will see dozens of 
Help Iraq bumper stickers and rosaries in people's cars, and 
I'm proud to say that my constituents have advocated tirelessly 
on behalf of the Yezidis, working and praying that they are not 
forgotten.
    Mr. Chairman, I think it's very clear that the atrocities 
perpetrated by ISIS against Christians, Yezidis, and other 
religious and ethnic minorities in Iraq and Syria can only be 
described as a genocide.
    Ten months ago I took my first trip as a Member of Congress 
to Yerevan to commemorate the 100-year anniversary of the 
Armenian genocide and I saw firsthand how painful and somber 
the memory of those atrocities are even today.
    We have failed to recognize the Armenian genocide and I 
urge my colleagues not to make the same mistake again. The 
administration has shown they will not take serious action to 
destroy ISIS, let alone designate the atrocities committed 
against religious minorities as genocide which is why the 
people's house must take action.
    I'm a proud supporter of this resolution as are 200 
bipartisan members of the House and I look forward to seeing 
the resolution advance to the floor for a vote in front of the 
full House.
    Mr. Chairman, it is time that the lawyers at the State 
Department stop hiding behind legal niceties and nuances as an 
explanation for their insouciance. It's time for them to make a 
decision, a decision to call what's happening for what it is, a 
genocide.
    I yield back my time.
    Chairman Royce. I thank you, Mr. Trott, and I take your 
point. I think we can't afford the same negligence that we saw 
in the Armenian genocide with respect to this genocide against 
Yezidis and Christians.
    And other members seeking recognition? Hearing no further 
request, Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I'll be brief.
    I commend you for bringing this legislation to the 
committee and I rise in support of both measures.
    The Syrian Government has continued to commit atrocities 
against its own people and little has been done to address this 
affront to civilization. Nearly 1 million Syrian civilians have 
been deprived of basic humanitarian aid and there's been 
systematic starvation.
    It appears to be a calculated effort to eradicate portions 
of the Syrian population. There's little doubt that the Syrian 
Government and its allies are not only perpetrating war crimes 
but committing crimes against humanity.
    The Obama administration says sympathetic things but it 
does very little and its responses to ISIS' barbarism has 
continued to be too little too late.
    Maybe these two pieces of legislation will spur the 
administration to act finally. But I doubt it.
    Mr. Rohrabacher. Would the gentleman yield?
    Mr. Chabot. I'd be happy to yield.
    Mr. Rohrabacher. I'm a bit concerned because these two 
resolutions are both important and deserve a serious 
discussion. When I did support the chair's call for bringing 
them up together I was under the impression we would have 
debate on both of them. But we would have a vote together. And 
there are some things that need to be said about the Syrian 
resolution as well.
    Chairman Royce. I recognize the gentleman.
    Mr. Rohrabacher. Thank you very much.
    I think this resolution, while of course well intended and 
I certainly recognize that, makes about as much sense as in 
1942 demanding that we have to have a resolution condemning Joe 
Stalin and the Communist Party in Russia and calling them up 
and letting them know that we would expect them all to be 
brought on trial as victims or people who had committed crimes 
against humanity.
    We are at war with radical Islam terrorism under ISIL, 
which we have just now discussed in great detail and yes, we 
have imperfect partners in this war and some of the partners 
are even heinous in their approach to governing their own 
people and heinous in their murder of their own people.
    Just as Joseph Stalin was against Nazism when Nazism was 
the number-one threat to our national security, when we take 
the Government of Syria, which yes, has committed atrocities 
against its people, when we take that in the middle of the war 
against ISIL we are undermining the fight against ISIL.
    And the fact is that the Syrian Government they have under 
this Assad and his father, both have committed atrocities over 
the years. They're not the same atrocities. They're atrocities 
aimed at staying in power in the face of insurrections. They 
have committed crimes against humanity while trying to stay in 
power against insurrections.
    But let us note the Syrian Government at the same time, 
while fighting insurrections and many of the people expected to 
win in those insurrections are people who might commit the same 
type of genocide against Christians that we now just condemned.
    In fact, Syria is known under Assad as giving safe haven to 
Christians in the middle of the carnage that has swept that 
region. And I'm in no way suggesting that Assad is not guilty 
of these crimes.
    But this is not the time to be trying to tell him, number 
one, that he will and anyone supporting his regime are going to 
be put on trial for crimes against humanity and this could also 
be interpreted is that we are telling Russia that it will now 
be--the Government of Russia will now be put on trial for 
crimes against humanity.
    This isn't the time to do that. Our enemy is now radical 
Islam. Let's face it. Let's act like what we are in and which 
is war with people who would annihilate Western civilization 
and are trying to do so whenever they can.
    And yes, governments like General Sisi's in Egypt are 
imperfect in a lot of ways. We are at war with radical Islam. 
They mean to destroy us and destroy Western civilization and 
kill people by the millions if they can.
    Let's face this reality. I do not believe that this 
hostility toward Assad and toward Russia at this time, which 
are very--it's very legitimate for some reasons for that 
hostility and that they are both human rights abusers.
    But let us face--again, face reality. You try to do 
everything for everybody you end up not accomplishing anything 
for anybody.
    In this case, we undermine the position of the anti-ISIL 
forces in that part of the world and I know this analysis is 
contrary to the analysis which prevails here in Washington.
    But my common sense tells me that and tells me that we 
should not be engaged in focusing on someone who at this time 
gives safe haven to Christians and while guilty of certain 
things we would never condone certainly at this point assisting 
us in the--as is Russia in defeating radical Islam.
    I yield back my time.
    Chairman Royce. I will recognize myself on this issue.
    And I will just express some of my observations about how 
Assad's actions contribute to ISIS' survival because from my 
perspective in seeing the reports that come across our desk on 
the targeting of civilians on the torture, he keeps--Assad 
keeps the death toll rising.
    He's one of the original attractions actually for foreign 
fighters and radical groups, and it is specifically because of 
what are his war crimes, attempts to target not just hospitals 
but to target schools.
    To target hospitals, by the way, over and over again, I 
mean this isn't a case with an accidental targeting. This is 
how you end up with a situation with 500 doctors and nurses who 
have gone to the region to work with the NGO community 
slaughtered.
    And at the same time, if Assad were the protector of 
minority groups then why are members of every minority group 
fleeing Assad's Syria? Why are Christians seeking refuge in 
Turkey, in Jordan? Why are Alawites applying as refugees?
    Part of the problem, as I talk to the Alawite community, is 
that he's lost all reason in terms of carrying out reprisals.
    His secret police, in picking up so many tens of thousands 
of people and killing them, is on a spree here which doesn't 
even distinguish anymore by religion or nationality. That 
police state is creating a tremendous amount of adverse 
reaction in terms of laying the foundation for further mayhem.
    Now, when we look at Russia's actions also, it has claimed 
to attack ISIS. But it's doing very little. Less than 10 
percent of Russian air strikes ever hit ISIS. Instead, its 
strikes have been largely on U.S.-backed opposition.
    It hits ISIS occasionally. That's useful. That's useful for 
the Russian air force in its cover for its attacks on the 
regime's opponents.
    But Russian attacks have actually done more to help ISIS 
than hurt it, and I would give you one example--a clear 
example. It's Russian air strikes that are pounding the Free 
Syrian Army, pounding forces north of Aleppo in February and 
that is what allowed ISIS to take additional territory.
    This is not unlike the strategy deployed by Assad and it is 
for these war crimes--it is for these murderous actions on the 
part of the Assad regime, especially the barrel bombs and the 
chemical weapon that, again, allows ISIS to flourish.
    In testimony before this committee we heard and saw in 
graphic detail how Assad's prisons with their torture break 
down members of every sect, every religion, every ethnic group.
    You know, all are alike when you're begging for mercy, and 
we've heard enough testimony to the results and we've seen the 
millions upon millions upon millions displaced.
    And, frankly, the bombing by Assad and by Russia include 
minorities from across Syria and it is the opposition groups 
who are dedicated to establishing a transnational pluralistic 
government in service to all Syrians regardless of ethnicity or 
religion or sect.
    Assad is only interested in maintaining a grip on power 
regardless of how much and whose blood is spilt. That is my 
concern in this. That is why we cannot ignore his role or his 
crimes here.
    I will recognize Mr. Sherman.
    Mr. Sherman. There are those who say we should just fight 
ISIS and be in alliance with Assad to do so. I think that would 
be a road to defeat because Sunni Arabs who make up the vast 
majority of the Syrian population even now with so many of them 
fleeing the country will never accept a totally Assad-dominated 
Syria.
    One could imagine a deal with Assad. One could imagine the 
overthrow of Assad. But one can never imagine that Assad will 
have total power in Syria and the Sunni Muslims will accept it.
    And if we abandon the Sunni Muslims of Syria and say we're 
with Assad because we just are focused on ISIS, then the Sunni 
Muslims of Syria will join radical groups such as al-Nusra, 
such as even ISIS.
    The only way to defeat ISIS is to stop Assad from killing 
thousands of Sunni Muslims every month.
    I yield back.
    Chairman Royce. Mr. Smith, without objection.
    Mr. Smith. I want to associate my remarks with yours. I 
think you made a very, very cogent case.
    And just let me say to my very good friend from California 
it's never a good time. The argument in 2013 when I first 
proposed it in September, not a good time. Next year, not a 
good time. Never a good time.
    And let me also remind everybody that the Syrian war crimes 
tribunal will prosecute all those who commit these atrocities 
whether they be with ISIS, or al-Nusra, or any other, or Assad 
and his people. It goes after perpetrators of heinous crimes.
    Chairman Royce. Hearing no further requests for 
recognition, the question occurs on the items considered en 
bloc.
    All those in favor say aye.
    All those opposed, no. In the opinion of the Chair the ayes 
have it and the measure is considered en bloc, or agreed to, 
and without objection the measure is considered en bloc or 
ordered favorably reported as amended.
    Staff is directed to make any technical and conforming 
changes. Also without objection the Chair is authorized to seek 
House consideration on these measures under suspension of the 
rules.
    And that concludes our business for today. I want to thank 
our ranking member today, Mr. Sherman, and all of our committee 
members for their contributions and assistance with today's 
markup.
    The committee is adjourned.
    [Whereupon, at 10:30 a.m., the committee was adjourned.]

                          A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
